IN THE SUPREME COURT OF IOWA
No. 21-0042
Woodbury County No. AGCR107672
ORDER
*
D

D
J
ti
%

STATE OF IOWA,
Plaintiff-Appellee,

3

VS.

D

JEAN LYNN LILLIE,
Defendant-Appellant.

In

n

i.

D

i
j

J

This matter comes before the court upon the defendant’s application for
discretionary review. The defendant seeks review of the district court’s December 22,2020
order denying her motion to dismiss. The State has filed a resistance. Upon consideration,

N
D
N

the application for discretionary review is denied. The filing fee is waived.

«■»

D

a
a
u

Copies to:
Jennifer Van Kekerix
507 7th Street Suite 300
Sioux City, IA 51101

2

=3I
n

>N

J
J
<
J
-H

z;

D
*

J

a
J
a

Kevin Cmelik
Assistant Attorney General
Criminal Appeals Division 2nd Floor
Hoover State Office Building
Des Moines, IA 50319-0106
Criminal Appeals Division Iowa Attorney General
1305 E. Walnut
Hoover Building
Des Moines, IA 50319
Woodbury County Clerk of Court

1 of 2

ibWAAPf Hdxri COURTS:

State of Iowa Courts
Case Number
21-0042

Case Title
State v. Lillie
So Ordered

Dana L Oxley, Justice

Electronically*signed on 2021-02-02 14:59:48

;

:•

r

• :*

v

•.:

r

I

;

2 of 2

E-FILED

AGCR107672 - 2020 DEC 22 03:38 PM
CLERK OF DISTRICT COURT

WOODBURY
Page 1 of 3

IN THE IOWA DISTRICT COURT FOR WOODBURY COUNTY
STATE OF IOWA
Plaintiff

03971 AGCR107672

VS

ORDER
JEAN LYNN LILLIE
Defendant

Defendant’s Motion to Dismiss comes to the court's attention. The premise of the Motion is based
upon her rights under the Iowa and federal Constitutions for a speedy trial and that she has never
requested any continuance or delay in the litigation of this case.
Not withstanding the requirements of the Iowa Supreme Court's Supervisory Orders that will delay the
trial date past the ordinary speedy timeframe, Defendant did request a continuance of this matter on
two specific instances - July 31, 2020 and September 24, 2020. Contrary to the statements contained
in the defendant's Motion, on October 21,2020, this court scheduled the Jury Trial for February 23,
2021. Appellate issues instigated by the Defendant may further stay proceedings and the scheduling
of hearings or the trial.
This court is not in a position to question the authority and the rules of trial procedure as determined
by the Iowa Supreme Court. This court takes direction from the Iowa Supreme Court. Supervisory
Orders are implemented pursuant the legal authority available to the Iowa Supreme Court, including
Article III, section 1 and Article V, sections 1 and 4 of the Iowa Constitution.
The Iowa Supreme Court has made the specific findings concerning the health situation caused
by the Covid pandemic, balancing the need to take measures to reduce the spread of the virus
with its commitment to conducting business as necessary. As such, the Iowa Supreme Court has
ORDERED that all Iowa courts abide by its Order such that "All jury trial that have not commenced
as of November 16, 2020 ... shall be continued to a date no earlier than February 1,2021."
(Supervisory Order dated November 10, 2020)
Priority of rescheduled trials is given as set forth in the Supervisory order dated July 9, 2020, which,
in part, prioritized trials involving persons who are currently in custody. The Iowa Supreme Court
also extended the speedy trial deadline to 180 days for persons who are not in custody, restarting
the calendar with February 1, 2021 as Day 1. Good cause is granted for this extension within the .
meaning of Iowa R, Crirn. P. 2.33 for this any other continuance or extension of time. The Iowa
Supreme Court suspended the operation of any court rules that are to the contrary. (Supervisory
Order, Id.)
This court is without the option to select which Supervisory rules it will and will not abide by.

/hffie/Sjxx X>

E-FILED

AGCR107672 - 2020 DEC 22 03:38 PM
CLERK OF DISTRICT COURT

WOODBURY
Page 2 of 3

The court has made every available option to schedule matters according to Iowa Supreme Court
Supervisory Orders as they are updated. >
Defendant's Motion to Dismiss is OVERRULED.
Clerk to notify.
If you need assistance to participate in court due to a disability, call the disability coordinator at (712)
279-6035 or information at https://www.iowacourts.gov/for-the-public/ada/. Persons who are hearing
or speech impaired may call Relay Iowa TTY (1-800-735-2942). Disability coordinators cannot
provide legal advice.

; E-FILED

AGCR107672 - 2020 DEC 22 03:38 PM
CLERK OF QiSIRICT COURT

State of Iowa Courts
Case Number
AGCR107672
Type:

Case Title
STATE VS LILLIE, JEAN LYNN
OTHER ORDER
So Ordered

£

Electronically signed on 2020-12-22 15:38:12

WOODBURY
Page 3 of 3

Additional material
from this filing is
available in the
Clerk's Office.

